No. 21A33

In the Supreme Court of the United States
__________

JOHN H. RAMIREZ,
Petitioner,
v.
BRYAN COLLIER, EXECUTIVE DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE, ET AL.
Respondents.
__________

CERTIFICATE OF SERVICE
I hereby certify that on this 7th day of September, 2021, I caused three copies of
the Motion for Leave to File Brief Amicus Curiae and Motion for Leave to File Brief Amicus
Curiae on 8 ½ by 11-Inch Paper, of the Becket Fund for Religious Liberty in Support of
Petitioner, and the proposed Brief Amicus Curiae of the Becket Fund for Religious Liberty in
Support of Petitioner, to be served via first class mail, as required by Supreme Court
Rule 29.5, on the following counsel:
Seth Kretzer
Law Offices of Seth Kretzer
9119 South Gessner, Suite 105
Houston, TX 77054
(713) 775-3050
Ken Paxton, Attorney General of Texas
Brent Webster, First Assistant Attorney General
Josh Reno, Deputy Attorney General for Criminal Justice
Edward L. Marshall, Chief, Criminal Appeals Division
Jennifer Wren Morris, Assistant Attorney General
P.O. Box 12548, Capitol Station
Austin, TX 78711
(512) 936-1400
I further certify that I caused a copy of the motions and amicus brief to be served
electronically on the following emails for both parties:
Seth Kretzer
Jennifer Wren Morris

seth@kretzerfirm.com
jennifer.wren@oag.texas.gov

I further certify that all parties required to be served have been served.

Eric C. Rassbach
Counsel of Record
The Becket Fund for Religious
Liberty
1919 Pennsylvania Ave. NW
Suite 400
Washington, DC 20006
Tel: (202) 995-0095
erassbach@becketlaw.org

